No. 19-518
In the Supreme Court of the United States
Colorado Department of State,
Petitioner,
v.
Micheal Baca, et al.,
Respondents

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae National Conference of Commissioners on Uniform State Laws Supporting
Petitioner contains 6,718 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 8, 2020.

James Bopp, Jr.
Counsel of Record
THE BOPP LAW FIRM, PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 telephone
812/235-3685 facsimily
jboppjr@aol.com
Counsel of Record
for Amicus Curiae

